AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




   Audit Report


  Management Controls over the
  Bonneville Power Administration's
  Personal Property Accountability




  OAS-M-08-01                         October 2007
                             Department of Energy
                                  vvasnlngron,   UL   LUSU:,
                                  October 1 , 2007



MEMORANDUM FOR TQ-YADMINISTRATOR, BONNEVILLE POWER ADNIINISTRATION

F'IIOM.                     or"
                                         [?L&& </('
                                      Collard
                     /    Assistant Inspector General
                            for Performance Audits
                          Office of Inspector General

                          INFORMATION: Audit Report on "Management Controls
                          over the Bonneville Power Administration's Personal PI-opesly
                          Accountability"



Bonncvillc Power Administration (Bonnev~lle)is responsible for marketing, selling, and
transniitting power produced from the Federal Columbia River Power System. To fuliill
this mission, Bonneville utilizes numerous personal property assets and is the entity
I-esponsible for establishing its property management policies and procedures. These
includc Bonneville's Personal Property Instri~ctionsfor managing and controlling
pcrsonal property that si~pportbusiness operations. Bonncville uses Sunflower software
to rccord informati011 on select pcrsonal property, specifically, those assets with an
acquisition cost greater than or equal to $1,000 (excluding office furniture, accessories,
and appliances). These assets include sensitive items. regardless of acquisition cost. that
arc vulnerable to loss, theft, or misuse, includirlg computers.

.As of Dccemher 20, 2000, Bonneville tracked over 17,600 personal property assets with a
total acquisition cost ofapproximatcly $78 nlillion through the Sunflower system.
B e c a ~ ~of
           s e thc value and sensitivity of the assets recorded in the Sunflower systcm, we
initiated this audit to determine whether Bonneville had effcctive controls over its
personal property.

RESULTS
- -         OF ALTDI'I'

Bonnevillc did not have effcctive controls over its personal property tracked through the
Sunflowcr system. Specifically, we found that Bonneville had not always ensured that:

       Eq~~ipment silsceptible to loss or theft such as leased computers was cntered into
       accountability;

        Inventory infom~ationaccurately identified the property's location;

       l'lie existence of itcms translrred from one property custodian to another was
       validated; and,

        Inconsistencies in lost 01-
                                  stolen propcrty information wcre rcconcilcd.
For exaniple, asset infolmation for approvinlately 600 leased cornpulers was not entered
in Bonneville's Sunflower accountability system until we brought the matter to
Bonneville's attcntioii. These con~putershad bcen storcd for alnlost six months in a
warehouse before the asset infomiation was recorded in the Sunflower system. In
another instance, we noted that 3,516 (92 percent) of the 3,836 information tech~iology
itenis at two locations were not recorded In the Sunflower software even though it is the
official inventory repository for such assets. Instead, the two locations used local
systems to record the inventory. We also notcd that the Sunflower sofiware contained the
location of personal propert) at sites that had been closed for nearly a year, even though
all property had been removed.

Bonneville did not have effective controls over personal property due to a lengthy
corrective action approval process, weaknesses in implementing training, and lack of
input controls for location info~~nation  in the Sunflower system. Specifically, Bonneville
took more than a year to fonnally approve ii~~plementation    of some actions to address
previously identified weaknesses in the Sunflower system. 111 addition, management did
not always ensure that training was effectively utilized by employees. Further, the design
of Sunflower's data fields permitted the recording of incomplete, inaccurate, and
inconsistent location information. To its credit, Bonneville has undertaken initiatives to
incl-ease the accountability of property management personnel and combine multiple
asset tracking systems. However, further action is needed to ensure that the weaknesses
identified in this report are fully addrcssed.

Without more effective controls over personal property, Bonneville is at continued risk of
property losses. For example, during Calendar Years 2004 through 2006, Bonneville had
lost or stolen property with an acquisition cost averaging approximately $700.(100 per
year, including 130 computers. Conversely, with improved controls Bonneville may be
able to reduce its losses of such vital personal property.

MANAGEMENT REACTION

Management generally agreed with the audit recommendations, but offered some
suggested revisions to the recommendations. In addition, management expressed its view
that its property losses are lower than similarly sized utilities and suggested sonie
revisions to the body of the report. Managenient's conceims have been addressed in the
report as appropriate. Managenient's coniments are included in their entirety in Appendix
7
3.


Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Chief of Staff
      Team Leader, Audit Liaison Team, CF-1.2
      Bonneville Power Administration Liaison Office
      Audit Liaison. Bonneville Power Administration
REPORT ON MANAGEMENT CONTROLS OVER BONNEVILLE POWER
ADMINISTRATION'S PERSONAL PROPERTY ACCOUNTABILITY


TABLE OF
CONTENTS


  Personal Property Accountability

  Details of Finding                            1

  Recommendations                               4

  Comments                                      5


  Appendices

  1. Objective, Scope, and Methodology          7

  2. Related Audit Reports                      9

  3. Management Comments                        10
PERSONAL PROPERTY ACCOUNTABILITY

Property Controls   Bonneville Power Administration (Bonneville) did not have
                    effective controls over its personal property tracked through the
                    Sunflower system. Specifically, we found that (1) equipment
                    susceptible to loss or theft was not always entered into
                    accountability; (2) inventory location information was not always
                    accurate; (3) the existence of personal property items was not
                    always validated when being transferred from one custodian to
                    another; and, (4) inconsistencies in records regarding lost or stolen
                    property were not reconciled.

                                         Equipment Accountability

                    The existence of personal property susceptible to loss or theft was
                    not always accounted for by Bonneville. We found that
                    approximately 600 (40 percent) of 1,500 leased computers
                    received by Bonneville had been stored in a warehouse for nearly
                    six months without the asset information being recorded in its
                    Sunflower accountability system. Bonneville officials
                    subsequently informed us that they recorded the information for
                    these computers after we brought the situation to their attention. In
                    other cases, we noted that:

                       •   3,516 (92 percent) of 3,836 information technology (IT)
                           property items at two locations were not recorded in
                           Sunflower, although local site managers tracked their
                           existence in separate databases; and,

                       •   One custodian had not tagged and recorded personal
                           property purchased during the past three years.
                           Specifically, property items susceptible to loss or theft,
                           including a welder with an estimated acquisition cost of
                           $2,400, were not marked with a Bonneville property tag
                           and recorded in the accountability system. Upon further
                           discussion with officials currently responsible for this
                           inventory, the exact number and acquisition cost of the
                           unrecorded assets was unknown. However, Bonneville is
                           currently working on accumulating the information for
                           inclusion in Sunflower.

                                            Inventory Accuracy

                    Not all personal property location information was accurately
                    recorded in the Sunflower system. Specifically, we found that
                    Sunflower records showed:




Page 1                                                              Details of Finding
                         •   47 personal property items with a total acquisition cost of
                             $77,771 located at three sites, although these sites had
                             closed around September 2006, and property personnel
                             confirmed that all items had been removed.

                         •   Location information for 138 (36 percent) of 382 items
                             tested at Portland Headquarters was not accurate.

                                    Validating Existence of Property Items

                      Some Bonneville custodians did not validate the existence of
                      inventory items prior to accepting stewardship for the items when
                      transferred from other custodians. For example, two custodians
                      explained that the locations of property items we had selected for
                      testing were unknown, since they had not validated the existence
                      of property items each had accepted. We observed another
                      custodian accepting an asset into his Sunflower inventory without
                      physically locating it.

                                         Reconciling Inconsistencies

                      Inconsistent information about lost or stolen property was not
                      reconciled by Bonneville. Specifically, we found that 72 assets
                      listed in a Property Loss Report log were not tracked in the
                      accountability system. Such tracking is important for management
                      analysis and investigation of missing property.

Property Management   Bonneville did not always have effective controls over personal
And Implementation    property due to a lengthy corrective action approval process,
                      weaknesses in implementing training, and lack of input controls for
                      location information in Sunflower. Specifically, previously
                      identified weaknesses in Sunflower have not been corrected. In
                      addition, management did not ensure that custodians effectively
                      utilized available training. Further, the design of Sunflower's data
                      fields permitted the recording of incomplete, inaccurate, and
                      inconsistent location information.

                                          Corrective Action Process

                      Bonneville management initiated a corrective action approval
                      process that turned out to be lengthy. For Calendar Years (CY)
                      years 2004 through 2006, Bonneville's Internal Audit Department,
                      along with personal property personnel, completed reviews of
                      Sunflower as requested by the Organizational Property
                      Management Officer (OPMO) responsible for overseeing personal
                      property management. The reviews identified weaknesses in


Page 2                                                                Details of Finding
         Sunflower data reliability, including asset location information.
         Remedial actions were proposed and adopted by program
         management in February 2006 to address September 2005 internal
         audit findings, using a Bonneville efficiency review process known
         as the Enterprise Process Improvement Program. However, final
         approval of corrective action implementation plans was not given
         by senior executive management until June 2007. Part of this
         delay was attributed to external factors that affected the approval
         of the actions. To its credit, Bonneville designed these actions to
         increase custodian accountability by proposing to (1) incorporate
         property management activities into managerial performance
         contracts; and, (2) hire new OPMO staff to conduct compliance
         reviews of the property operation.

         Management disagreed that a lengthy corrective action approval
         process accounted for Bonneville not always having effective
         controls over personal property. However, as discussed above,
         known property management weaknesses were not corrected for
         over one year as corrective action plans were reviewed and
         approved by management through the Enterprise Process
         Improvement Program process.

         Although Bonneville has acted to improve its property
         management controls, additional actions are needed to ensure that
         property control weaknesses identified in this report are corrected.
         For example, other controls, such as an independent physical
         validation that inventories are properly conducted and the
         existence of items is validated at the time of property transfer, still
         needs to be addressed. Specifically, we found that management
         had relied upon the results of both the annual and physical
         inventories that were to be conducted by the custodians or the
         completion of inventories when property was transferred among
         custodians. Based on the ability of custodians to record inventory
         observation without independent validation, there was no
         assurance that the physical inventories were conducted or that the
         assets listed in Sunflower were physically located at Bonneville's
         complex. This weakness is further evident by the three custodians
         previously noted who simply accepted inventory in Sunflower
         without validating its existence.

         Also, even though Sunflower was designated as the official
         repository for all IT property, Bonneville did not ensure that it
         included all IT assets. In the summer of 2006, management
         approved a recommendation to work towards transitioning
         Bonneville's separate IT property databases to Sunflower.
         However, the migration of the databases to Sunflower is not



Page 3                                                     Details of Finding
                    scheduled to be fully implemented until fiscal year 2008.
                    Therefore, there is no assurance that new IT equipment will be
                    entered into Sunflower prior to the transition.

                                          Utilization of Training

                    Training provided by Bonneville was not effectively utilized by
                    custodians. When asked about the adequacy of training, 14 (29
                    percent) of 48 custodians replied that they had not received any
                    training or that the training received was not adequate to
                    understand their roles and responsibilities. Bonneville officials
                    informed us that no custodian had been granted access to the
                    Sunflower system without completing training required for new
                    custodians and that there was a standing offer to custodians of one-
                    on-one training with property management officials at the
                    custodian's request. However, the custodian responses above
                    indicate that management needs to do more to ensure that
                    employees effectively utilize available training.

                                Input Controls Over Location Information

                    Sunflower is not configured to facilitate identifying the specific
                    location of personal property items in a consistent manner.
                    Specifically, the data fields used to record sub-locations are not
                    controlled or limited to certain options to permit the consistent
                    and/or accurate recording of location information. For example,
                    while the system provides a drop-down list of sub-location options,
                    it also allows the custodian to manually enter different information
                    or no sub-location. We also found that 30 (14 percent) of the 220
                    site codes should not have been used because they represented,
                    among other things, closed sites or duplicative sites.

Accountability of   Without more effective controls over personal property, Bonneville
Personal Property   is at continued risk of property losses. Specifically, over the three
                    year period CY 2004 through 2006, Bonneville's lost or stolen
                    personal property had an average acquisition cost of approximately
                    $700,000 per year. This property included operational items such
                    as meters, testing equipment, hydraulic pumps, and generators, as
                    well as vulnerable items with potential market value such as
                    computers, printers, cameras, and portable radios. Conversely,
                    with improved controls Bonneville may be able to reduce its losses
                    of such vital personal property.


RECOMMENDATIONS     We recommend that the Administrator, Bonneville Power
                    Administration, direct officials responsible for property
                    management and systems development to:


Page 4                                                              Recommendations
                1. Ensure that program actions address weaknesses identified
                   in the controls over personal property, including:

                       a. Timely entry of personal property information into
                          Sunflower and reconciliation of inconsistent
                          information regarding lost or stolen property;

                       b. Increased use of property compliance assessments
                          to physically validate that inventories are properly
                          conducted and items are physically located before
                          being accepted as transferred items in Sunflower;

                       c. Ensuring that all new IT assets are entered into
                          Sunflower in a timely manner by all BPA
                          organizations currently using the system;

                       d. Ensuring that all BPA organizations migrate to
                          using Sunflower in accordance with the Enterprise
                          Process Improvement Program initiative project
                          schedule; and,

                       e. Periodically validating the timeliness of IT asset
                          migration into Sunflower.

                2. Establish and implement a training schedule for property
                   personnel for initial and refresher training in Sunflower to
                   ensure that asset location information is complete, accurate,
                   and consistently recorded.

                3. Review and identify the appropriate controls over entering
                   item location information in Sunflower and ensure that
                   Sunflower is updated to correct any weaknesses identified
                   during the review.


MANAGEMENT   Management pointed out that Bonneville's property losses are
REACTION     lower than similarly sized utilities. However, Bonneville
             management recognized that opportunities existed to improve
             property management controls. Management generally agreed
             with our recommendations but suggested a number of minor
             revisions. Specifically, management stated that it would ensure
             timely entry of personal property information into Sunflower by
             inserting property management elements in manager contracts, and
             through additional training, a property communication program,
             and a written acceptance procedure for portable electronic
             equipment. In addition, management plans to make greater use of



Page 5                                   Recommendations and Comments
           training and compliance assessments for independent validation of
           inventories and the physical location of items before custodial
           transfer is acceptable. Further, management plans to ensure the
           timely recording of IT assets in Sunflower by training and periodic
           compliance reviews. Also, Bonneville stated that it has scheduled
           Sunflower training that includes a range of training methods,
           including hands on training. Finally, Bonneville's proposed
           actions to address weaknesses in the entry of location information
           in Sunflower.

           Management asserted that there were no inconsistencies between
           the Sunflower system and official property lost or stolen reports.
           Management stated that it believes the issue is not significant
           because it is based on a comparison of information from unofficial
           property loss logs and official Sunflower records.


AUDITOR    Management's suggestions and proposed actions are generally
COMMENTS   responsive to our recommendations. However, we continue to
           believe that Management should reconcile inconsistent information
           regarding lost or stolen property. The property loss logs listed
           Property Loss Report numbers for missing personal property that
           was not listed as missing in Sunflower. Therefore, the need for a
           reconciliation of property loss data and Sunflower data remains.
           After subsequent discussions with management, management
           agreed to conduct such a reconciliation.

           Finally, although Bonneville's property losses may actually be
           lower than comparable utilities, we believe that correcting existing
           property control weaknesses offers the opportunity to further
           reduce losses and is clearly in the interest of both Bonneville and
           its ratepayers.




Page 6                                                             Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Bonneville Power Administration (Bonneville) had effective
              controls over its personal property.

SCOPE         The audit was performed between December 2006 and June 2007.
              Testing procedures were performed on personal property asset
              records from Bonneville's Headquarters located in Portland,
              Oregon; Ross Complex and Two Park Place located in Vancouver,
              Washington; and, Alvey Maintenance Headquarters located in
              Eugene, Oregon. The scope of the testing procedures was limited
              to the personal property asset records in Sunflower as of December
              20, 2006. We also conducted a survey of custodians from other
              sites within Bonneville's complex.

METHODOLOGY   To accomplish the audit objective, we:

                  • Obtained and reviewed laws, regulations, policies, and
                    procedures relevant to Bonneville's management of its
                    Sunflower system;

                  • Obtained and reviewed prior audit and review reports;

                  • Held discussions with various Bonneville officials;

                  • Gained an understanding of Bonneville's system for
                    managing assets that are to be tagged, tracked, and
                    recorded in Sunflower;

                  • Analyzed Sunflower's personal property records as of
                    December 20, 2006;

                  • Selected a statistical sample of 761 assets from six of the
                    220 sites to determine if the assets were physically located
                    at the site listed in Sunflower;

                  • Selected all assets with acquisition costs greater than or
                    equal to $100,000 from the six sites previously selected,
                    which totaled 38 assets, to determine if the assets were
                    physically located at the site listed;

                  • Selected a judgmental sample of 107 personal property
                    assets from the six sites previously selected for tracing back
                    to Sunflower;

                  • Obtained and reviewed the list of leased computers
                    received through November 2006;


Page 7                                   Objective, Scope, and Methodology
Appendix 1 (continued)


                         • Obtained and reviewed the purchase card statements and
                           purchasing system transactions for 2006 for sensitive items;
                           and,

                         • Obtained and reviewed the list of lost or stolen personal
                           property tracked in Sunflower for Calendar Years 2004
                           through 2006.

                    The audit was performed in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective.
                    Accordingly, we assessed the significant internal controls related
                    to the accuracy of Sunflower data. Because our review was
                    limited, it would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. Also,
                    we considered the establishment of performance measures in
                    accordance with the Government Performance and Results Act of
                    1993 and concluded that specific performance measures
                    concerning the management of personal property at Bonneville did
                    not exist. However, our recommendations, when fully
                    implemented, will assist Bonneville in improving data reliability
                    for information recorded in Sunflower.

                    We used computer-processed data to accomplish our audit
                    objective. Our procedures included gaining an understanding of
                    the process for inputting personal property information into
                    Sunflower, as well as the security access to Sunflower to determine
                    if the data was sufficiently reliable. Based on this, we decided to
                    perform additional tests of Sunflower data to accomplish our
                    objective. Computer assisted audit tools were used to perform
                    queries and testing of the Sunflower records. The completeness
                    and accuracy of the data is addressed in the body of the report.

                    We held an exit conference with Bonneville's Organizational
                    Property Management Officer on September 14, 2007.




Page 8                                          Objective, Scope, and Methodology
Appendix 2

                                 RELATED AUDIT REPORTS

•   Audit of Sandia National Laboratories Personal Property Accountability (DOE/IG-0523,
    September 2001). This audit found that Sandia National Laboratories' (Sandia) Fixed Assets
    Database (Database), a primary tool in the effort to ensure property accountability, was not
    accurate and could not be relied upon. In addition, the property that was not accounted for
    could lead to undetected losses. Specifically, 20 percent of personal property items sampled
    were not listed in the Database and over 5 percent of the property included in the Database
    could not always be located. Further, the property coordinators were not effectively ensuring
    that the Database was complete and up to date. In total, it was estimated that the Database
    did not include between 6,100 and 19,500 property items. This occurred because the
    property coordinators were not effective in ensuring the Database was complete or updated,
    as necessary; inventory validation procedures used by Sandia were questionable; and, there
    were no performance measures related to the accuracy of the Database.

•   Audit of Bonneville Power Administration's Management of Information Resources (WR-B-
    96-06, April 2, 1996). Positive aspects were noted in Bonneville Power Administration's
    (Bonneville) management of computer-related equipment; however, improvements could be
    made in implementing credit card and property procedures. Specifically, almost 43 percent
    of a sample of credit card purchases were made by employees whose authority to buy
    computer-related equipment was not documented properly. In addition, property custodians
    did not ensure that equipment was tagged and included in property records. In fact, 51 items
    were identified that had not been tagged and were easily removable and convertible for
    personal use. Discrepancies were noted in the spare parts records for one group specifically,
    67 percent of the 32 lines items reviewed were inaccurate. Lastly, 703 pieces of equipment
    were identified that could have been redistributed within Bonneville or other Federal or state
    agencies that could have used them.

•   Special Inquiry on the Operations at Los Alamos National Laboratory (DOE/IG-0584,
    January 2003). The Office of Inspector General inquiry found that Los Alamos National
    Laboratory (Laboratory) management failed to take appropriate or timely action with respect
    to a number of identified property control weaknesses, and related security concerns.
    Specifically, there was (1) inadequate or untimely analysis of, and inquiry into, property loss
    or theft and security issues; (2) lack of personal accountability for property; (3) substantial
    degree of dysfunction in the Laboratory's communication and assignment of responsibility
    for the handling of property loss and theft concerns; and, (4) inadequate controls over
    procurement and property systems. Inconsistencies were noted between computers reported
    lost and stolen to the Office of Security Inquiries and data available to property management
    officials. In addition, Laboratory management generally chose not to enforce accountability
    statements signed by the employees when custody was taken of an item. Rather, they chose
    to "write off" the missing property at the end of an inventory cycle. Further, there was
    organizational inconsistency between the roles of the Office of Audits and Assessments and
    the Office of Security Inquiries resulting in the potential for "overlap" and "underlap" in
    responsibilities.




Page 9                                                                   Related Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. OAS-M-08-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
